OIG Audit Report GR-70-08-003

National Institute of Justice Convicted Offender DNA Backlog Reduction Program Cooperative Agreements to the New Jersey Department of Law and Public Safety, Trenton, New Jersey

Audit Report GR-70-08-003


September 2008
Office of the Inspector General


Executive Summary


 The U.S. Department of Justice (DOJ) Office of the Inspector General (OIG), Audit Division, has completed an audit of the National Institute of Justice (NIJ) Convicted Offender DNA Backlog Reduction Program cooperative agreements 2005-DN-BX-K051 and 2006-DN-BX-K242. The New Jersey Department of Law and Public Safety (DLPS) received a combined total of $1,991,236 from the agreements to reduce its backlog of convicted offender DNA samples through in-house analysis and data review. 
 The objective of our audit was to determine whether the costs reimbursed under the agreements were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and the terms and conditions of the agreements. We also assessed the DLPS’s program performance in meeting agreement objectives and overall accomplishments. 
 We determined that the DLPS did not fully comply with the agreement requirements we tested. We reviewed compliance with five essential agreement conditions and found weaknesses in three of the five areas: (1) agreement expenditures, (2) reporting, and (3) program performance. 
 We found that the DLPS charged $99,349 in unsupported overtime personnel expenditures, $18,466 in pre-agreement personnel and fringe benefit expenditures, and $2,527 in unallowable non-budgeted administrative equipment to the 2005 agreement. We also recommend $179,899 in unspent funding from both agreements be deobligated and put to better use because the objectives of the program have been achieved. As a result of the deficiencies, we question a total of $300,241 in funding.1 The amount of dollar-related findings totals 15 percent of the total agreement funding. 
 In addition to the questioned costs, we had two management improvement findings related to reporting and program performance. We found that the DLPS did not accurately report agreement activities on the progress reports and performance metrics reports. We also found that DLPS did not track the performance and status of meeting goals for each award. 
 These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology appear in Appendix I. 
 We discussed the results of our audit with DLPS officials and have included their comments in the report, as applicable. In addition, we requested a response to our draft audit report from the DLPS and the NIJ. The response from the DLPS has been attached as Appendix III of this report. The Office of Justice Programs provided a response for the NIJ, which is in Appendix IV of this report. Our analysis of both responses, as well as a summary of the actions necessary to close the recommendations can be found in Appendix V of this report. 



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.








Return to OIG Home Page